WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-6131

Deandre M. Smith

v.

State of Wisconsin

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
ID Please enter my appearance as Counsel of Record for all respondents.
O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
\

Date.

i/e ZCD

(Type or print) Name

Aaron R. O'Neil
Mr.

Firm

❑ Mrs.

❑ Miss

Wisconsin Department of Justice

Address

17 West Main Street

City & State
Phone

11] Ms.

Madison, Wisconsin

608-266-1740

Zip
Email

53703

oneilar@doj.state.wi.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Dana L. LesMonde, Lesmonde Law Office, 354 West Main Street, Madison WI 5370

REC 3VED
NOV 2 5 2020
OFFICE OF THE CLERK
SUPREME COt AT U.S.

